<html>
<title> - H.R. 511, TRIBAL LABOR SOVEREIGNTY ACT OF 2015</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                   H.R. 511, TRIBAL LABOR SOVEREIGNTY
                               ACT OF 2015

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON HEALTH,
                    EMPLOYMENT, LABOR, AND PENSIONS

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JUNE 16, 2015

                               __________

                           Serial No. 114-20

                               __________

  Printed for the use of the Committee on Education and the Workforce


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov     
            
   
   
   
   
   
   
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-926 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
                 COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California              Ranking Member
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Joe Courtney, Connecticut
Brett Guthrie, Kentucky              Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan,
Joseph J. Heck, Nevada                 Northern Mariana Islands
Luke Messer, Indiana                 Frederica S. Wilson, Florida
Bradley Byrne, Alabama               Suzanne Bonamici, Oregon
David Brat, Virginia                 Mark Pocan, Wisconsin
Buddy Carter, Georgia                Mark Takano, California
Michael D. Bishop, Michigan          Hakeem S. Jeffries, New York
Glenn Grothman, Wisconsin            Katherine M. Clark, Massachusetts
Steve Russell, Oklahoma              Alma S. Adams, North Carolina
Carlos Curbelo, Florida              Mark DeSaulnier, California
Elise Stefanik, New York
Rick Allen, Georgia

                    Juliane Sullivan, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                

        SUBCOMMITTEE ON HEALTH, EMPLOYMENT, LABOR, AND PENSIONS

                   DAVID P. ROE, Tennessee, Chairman

Joe Wilson, South Carolina           Jared Polis, Colorado,
Virginia Foxx, North Carolina          Ranking Member
Tim Walberg, Michigan                Joe Courtney, Connecticut
Matt Salmon, Arizona                 Mark Pocan, Wisconsin
Brett Guthrie, Kentucky              Ruben Hinojosa, Texas
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan,
Joseph J. Heck, Nevada                 Northern Mariana Islands
Luke Messer, Indiana                 Frederica S. Wilson, Florida
Bradley Byrne, Alabama               Suzanne Bonamici, Oregon
Buddy Carter, Georgia                Mark Takano, California
Glenn Grothman, Wisconsin            Hakeem S. Jeffries, New York
Rick Allen, Georgia




























                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 16, 2015....................................     1

Statement of Members:
    Polis, Hon. Jared, Ranking Member, Subcommittee on Health, 
      Employment, Labor, and Pensions............................     3
        Prepared statement of....................................     4
    Roe, Hon. David P., Chairman, Subcommittee on Health, 
      Employment, Labor, and Pensions............................     1
        Prepared statement of....................................     1

Statement of Witnesses:
    Butler, Mr. Rodney, Chairman, Mashantucket Pequot Tribal 
      Council, Mashantucket, Connecticut.........................    21
        Prepared statement of....................................    24
    Guest, Mr. Richard, Senior Staff Attorney, Native American 
      Rights Fund, Washington, DC................................     8
        Prepared statement of....................................    10
    Keel, Hon. Jefferson, Lieutenant Governor, Chickasaw Nation, 
      Ada, Oklahoma..............................................    42
        Prepared statement of....................................    44
    Navarro, Mr. Gary, Slot Machine Attendant and Bargaining 
      Committee Member, Unite Here Local 2850, The Graton Casino 
      and Resort, Rohnert Park, California.......................    30
        Prepared statement of....................................    32

Additional Submissions:
    Mr. Guest:
        Appendix A...............................................    75
        Appendix B...............................................    88
        Appendix C...............................................    94
        Appendix D...............................................   102
    Mr. Navarro:
        Letter dated June 29, 2015, from Unite Here..............   112
    Pocan, Hon. Mark, a Representative in Congress from the state 
      of Wisconsin:
        Letter dated June 15, 2015, from International Union of 
          Operating Engineers, Local No. 953, AFL-CIO............    62
        Letter dated June 15, 2015, from the Teamsters Local 
          Union No. 886..........................................    63
        Letter dated June 9, 2015, from the United Steelworkers 
          (USW)..................................................    65
        Prepared statement of Nassar, Mr. Josh, Legislative 
          Director, International Union, United Automobile, 
          Aerospace and Agricultural Implement Workers of America 
          (UAW)..................................................    68
        Letter dated June 15, 2015, from the International Union 
          of Operating Engineers.................................    70

 
                   H.R. 511, TRIBAL LABOR SOVEREIGNTY
                              ACT OF 2015

                              ----------                              


                         Tuesday, June 16, 2015

                        House of Representatives

                            Subcommittee on

                Health, Employment, Labor, and Pensions

                Committee on Education and the Workforce

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 2:11 p.m., in 
Room 2175, Rayburn House Office Building, Hon. Phil Roe 
[chairman of the subcommittee] presiding.
    Present: Representatives Roe, Foxx, Walberg, Salmon, 
Guthrie, Messer, Carter, Grothman, Allen, Polis, Courtney, 
Pocan, and Bonamici.
    Also present: Representatives Kline, Rokita, Scott, and 
Thompson of California.
    Staff present: Janelle Belland, Coalitions and Members 
Services Coordinator; Ed Gilroy, Director of Workforce Policy; 
Callie Harman, Staff Assistant; Tyler Hernandez, Press 
Secretary; Marvin Kaplan, Workforce Policy Counsel; Nancy 
Locke, Chief Clerk; John Martin, Professional Staff Member; 
Krisann Pearce, General Counsel; Alissa Strawcutter, Deputy 
Clerk; Juliane Sullivan, Staff Director; Alexa Turner, 
Legislative Assistant; Tylease Alli, Minority Clerk/Intern and 
Fellow Coordinator; Austin Barbera, Minority Staff Assistant; 
Amy Cocuzza, Minority Labor Detailee; Denise Forte, Minority 
Staff Director; Christine Godinez, Minority Staff Assistant; 
Kendra Isaacson, Minority Labor Detailee; Brian Kennedy, 
Minority General Counsel; Kevin McDermott, Minority Senior 
Labor Policy Advisor; Richard Miller, Minority Senior Labor 
Policy Advisor; Veronique Pluviose, Minority Civil Rights 
Counsel; and Dillon Taylor, Minority Labor Policy Fellow.
    Chairman Roe. A quorum being present, the Subcommittee on 
Health, Employment, Labor, and Pensions will come to order. 
Good afternoon, I would like to welcome our guests and thank 
you all for joining us today to discuss the very important 
subject of tribal sovereignty.
    For our witnesses, I realize this issue is not only 
important, it is deeply personal. And I appreciate you all 
being here to share your views and your experiences. I believe 
that will be valuable in our discussion of H.R. 511, the Tribal 
Labor Sovereignty Act of 2015.
    Upholding Native American rights of self-determination has 
long been a priority. As far back as the 1830s, when the 
governmental authority of the tribes was first challenged, our 
courts have held that the ``tribes possess a nationhood status 
and retain inherent powers of self-government.''
    For decades, policymakers have agreed on the importance of 
protecting these fundamental rights. We should never stand idly 
by while the sovereignty of Native Americans is threatened, and 
that is exactly why we are here today.
    A little more than 10 years ago, the National Labor 
Relations Board overturned long-standing precedent with the 
landmark San Manuel Bingo and Casino decision that began using 
a subjective test to determine when and where to exert its 
jurisdiction over Indian tribes.
    This action was met with significant opposition from the 
Native American community and considered by many to be an 
attack on tribal sovereignty. In fact, at a hearing of this 
subcommittee in 2012, Robert Porter, president of the Seneca 
Nation of Indians, called the move ``unfounded'' and a 
violation of treaty rights.
    During the same hearing, I myself expressed concern with 
the Board's policy and its flawed interpretation of the law. 
Unfortunately, the Board has ignored these and similar concerns 
and continues to exert its authority over Indian tribes.
    To make matters worse, the NLRB's actions have had 
ramifications that extend beyond threatening tribal 
sovereignty. The subjective nature of the Board's process for 
determining jurisdiction has also produced a mess of legal 
confusion. And that, I think you can say with the legal 
confusion, is an understatement.
    Years of litigation have produced inconsistent and 
misguided Board decisions, compounding the uncertainty felt by 
Native American tribes and their businesses. To help address 
these concerns and preserve tribal sovereignty over labor 
policies our colleague, Todd Rokita introduced H.R. 511, the 
Tribal Labor Sovereignty Act. The bill would prevent the NLRB 
from asserting its jurisdiction over businesses owned by Native 
Americans on tribal lands, codifying a Board standard that 
existed long before the San Manuel decision.
    In doing so, it would protect Native Americans from NLRB 
interference and provide legal certainty to the nation's Indian 
tribes. It is a common sense proposal that has attracted 
bipartisan support.
    Today, we will hear from tribal leaders who will share 
their experiences and discuss the importance of protecting your 
cherished sovereignty. I look forward to hearing the views on 
the reforms outlined in the bill.
    And with that, I will now recognize the senior Democratic 
member of the subcommittee from Colorado, Representative Jared 
Polis, for his opening remarks.
    Mr. Polis, you are recognized.
    [The statement of Chairman Roe follows:]

  Prepared Statement of Hon. David P. Roe, Chairman, Subcommittee on 
                Health, Employment, Labor, and Pensions

    Good afternoon. I'd like to welcome our guests and thank you all 
for joining us today to discuss the very important subject of tribal 
sovereignty. For our witnesses, I realize this issue is not only 
important, it's deeply personal, and I appreciate you being here to 
share your views and your experiences. I believe they will be valuable 
in our discussion of H.R. 511, the Tribal Labor Sovereignty Act of 
2015.
    Upholding Native American rights of self-determination has long 
been a priority. As far back as the 1830s, when the governmental 
authority of tribes was first challenged, our courts have held that 
``tribes possess a nationhood status and retain inherent powers of 
self-government.'' For decades, policymakers have agreed on the 
importance of protecting these fundamental rights. We should never 
stand idly by while the sovereignty of Native Americans is threatened, 
and that is exactly why we're here today.
    A little more than 10 years ago, the National Labor Relations Board 
overturned long-standing precedent with the landmark San Manuel Bingo & 
Casino decision and began using a subjective test to determine when and 
where to exert its jurisdiction over Indian tribes.
    This action was met with significant opposition from the Native 
American community and considered by many to be an attack on tribal 
sovereignty. In fact, at a hearing of this subcommittee in 2012, Robert 
Odawi Porter, president of the Seneca Nation of Indians, called the 
move ``unfounded'' and a violation of treaty rights. During the same 
hearing, I myself expressed concern with the board's policy and its 
flawed interpretation of the law. Unfortunately, the board has ignored 
these and similar concerns and continues to exert its authority over 
Indian tribes.
    To make matters worse, the NLRB's actions have had ramifications 
that extend beyond threatening tribal sovereignty. The subjective 
nature of the board's process for determining jurisdiction has also 
produced a mess of legal confusion. Years of litigation have produced 
inconsistent and misguided board decisions, compounding the uncertainty 
felt by Native American tribes and their businesses.
    To help address these concerns and preserve tribal sovereignty over 
labor policies, our colleague Todd Rokita introduced H.R. 511, the 
Tribal Labor Sovereignty Act. The bill would prevent the NLRB from 
asserting its jurisdiction over businesses owned by Native Americans on 
tribal lands, codifying a board standard that existed long before the 
San Manuel decision. In doing so,
    it would protect Native Americans from NLRB interference and 
provide legal certainty to the nation's Indian tribes. It's a 
commonsense proposal that has attracted bipartisan support.
    Today, we will hear from tribal leaders who will share their 
experiences and discuss the importance of protecting their cherished 
sovereignty. I look forward to hearing their views on the reforms 
outlined in the bill.
                                 ______
                                 
    Mr. Polis. Well, thank you, Mr. Chairman. I want to begin 
by thanking the chairman for pursuing regular order with this 
legislation. I am glad we are, first, having a hearing on this 
legislation in order to collect facts and get feedback from 
various perspectives. This really shows how this committee 
should work. And I am glad for this opportunity to listen and 
ask questions on this important issue.
    And thank you to our terrific group of panelists for taking 
your time to give us your in-depth perspective.
    As all legislative hearings should, I believe this hearing 
needs to be about fact-finding. This bill highlights the 
inherent tension between two important principles that many of 
us hold dear: tribal sovereignty over Indian nations and 
workers' rights.
    I fully support the sovereignty of our Native American 
nations, and I know many of us place a great deal of importance 
on their right to self-governance, control, and independence. I 
also believe deeply in the right of workers to organize, 
including Native American workers. And the ability of workers 
to fight for a safe and fair working environment.
    All legislation and National Labor Relations Board 
decisions must balance these competing principles. They should 
try their best, as should we, to make them complimentary rather 
than competitive. We should not favor one at the expense of 
another.
    Reconciling these two priorities may be difficult, but we 
as a committee have a responsibility to dig in to how we can 
effectively and fairly reconcile the issues and ensure that we 
protect tribal sovereignty while also respecting workers' 
rights. And discussing the implications of this bill on these 
two issues is where we begin the process.
    We should investigate knowing that this issue is about more 
than tribal sovereignty, it is about more than gaming 
restrictions or the National Labor Relations Act. It is not 
only about our respect for tribal sovereignty, it is also about 
whether the majority cares about unions and the right of 
workers to form unions. And as we have discussed hundreds of 
times, unions are the key to shrinking the wage gap, raising up 
the middle class, and creating good-paying jobs.
    Under current law, tribes are subject to many federal 
employment laws, including the Fair Labor Standards Act, OSHA, 
ERISA, the Family Medical Leave Act, the Americans with 
Disabilities Act. Which begs the question, if this conversation 
is not solely about the right to join a union, should we also 
be having a discussion around due process and federal 
exemptions for a variety of American workers, including those 
under the Americans with Disabilities Act, OSHA, ERISA and 
others, or even laws that prevent the use of child labor.
    I will also point out that I believe most of the companies 
operated by our Indian nations would not take advantage of 
workers. As is always the case, however, there can be bad 
actors and good actors. And in circumstances like these we want 
to make sure that we don't overburden good actors. But at the 
same time, we want to make sure that workers, including Native 
American workers, cannot be taken advantage of by the rare bad 
actor.
    American tribal sovereignty is a core principle that I 
believe in. We also need to analyze the issue with the 
knowledge that many of these businesses and casinos are part of 
interstate commerce, and that there are many people who work at 
businesses owned and operated by Indian nations who may not be 
enrolled in the tribe that owns the casino.
    That means these individuals have no ability to raise the 
issue of workers' rights within the context of tribal law. So 
the question becomes: what laws protect them and what rights do 
they have under American law? I am very interested in hearing 
from our witnesses on both sides of the issue about how this 
affects sovereignty, local control, and the health and economic 
vitality of working families.
    Thank you very much, Mr. Chairman, and I yield back the 
balance of my time.
    [The statement of Mr. Polis follows:]

Prepared Statement of Hon. Jared Polis, Ranking Member, Subcommittee on 
                Health, Employment, Labor, and Pensions

    I first want to thank the Chairman for pursuing regular order with 
this legislation. I am glad we are first having a hearing on this 
legislation and issue in order to collect the facts, and get feedback 
from various perspectives. I am glad for the opportunity to speak on 
this important issue. And thank you to our great group of panelists for 
taking their time to give us an in-depth perspective.
    As all legislative hearings should, I believe this hearing must be 
about fact finding. This bill highlights the inherent tension between 
two important principles of American law: tribal sovereignty and 
workers' rights. I fully support the sovereignty of Native Americans, 
and I know many of us place a great deal of importance on self-
governance, localized control, and the independence of tribal nations.
    But I also believe deeply in the right to organize, in protecting 
our workers and allowing workers, including Native American workers, to 
fight for a safe and fair working environment. All legislation and NLRB 
decisions must balance these competing principles, not favor one at the 
expense of the other. So reconciling these two priorities may be 
difficult, but we as the committee have a responsibility to dig into 
how we effectively and fairly reconcile these issues. We must work to 
honor and protect tribal sovereignty while also respecting workers' 
rights and discussing the implications of this bill on these two issues 
is where we begin.
    We must analyze this issue in its true context. We should 
investigate knowing that this issue is about more than tribal 
sovereignty; it is about more than gaming restrictions or the NLRA. It 
is not only about a respect for tribal sovereignty and control, it is 
also - perhaps primarily - about the Majority's dislike of the NLRB and 
Unions. As we have discussed hundreds of times, unions are the key to 
shrinking the wage gap, raising up the middle-class and creating good 
paying jobs. Without unions we wouldn't have weekends, we wouldn't be 
moving towards equal pay, and there would be many fewer jobs that a 
family can live comfortably live on.
    Under current law, tribes are subject to many federal employment 
laws, including the Fair Labor Standards Act, OSHA, ERISA, and the 
Family Medical Leave Act. Which begs the question, if this conversation 
is not solely about the right to join a union, then shouldn't we also 
be having a discussion around due process and federal exemptions for a 
variety of American workers - including those under the American 
Disabilities Act, OSHA, ERISA and the Federal Labor Standards Act which 
keeps companies from not using slave labor or child labor.
    I will also point out that I believe most of the companies operated 
by Indian nations would not take advantage of workers. As is always the 
case, however, there are bad actors and there are good actors. In 
circumstances like these, we cannot and should not overburden good 
actors. Nor, though, can or should we allow workers to be taken 
advantage of by the rare bad actor.
    American Tribal sovereignty across this country is vital, but we 
must also analyze this issue with the knowledge that these businesses, 
casinos and more, are part of interstate commerce, and that there are 
many people who work at businesses ``owned and operated by Indian 
nations'' who may or may not be of Native American descent. In fact 
statistics show that an overwhelming majority of workers (75% or more) 
come from outside the reservation and are not members of an Indian 
nation. These individuals have no ability to raise the issue of 
worker's right within the context of tribal law, so the question 
becomes what laws protect them?
    I am interested in hearing from our witnesses on both sides of this 
issue about how this bill impacts not only sovereignty and local 
control, but also the health and economic vitality of all ethnicities 
and beliefs.
    Thank you very much, and I yield back my time.
    Closing Statement
    Thank you to everyone for your impassioned and honest testimony and 
answers. I truly hope that everyone on the committee today will analyze 
this issue objectively, and with an understanding of what has been said 
here. As you consider this issue, please keep in mind the needed nexus 
between balancing critical domestic sovereignties with the protection 
due to all American workers - regardless of whether you are white, 
black, Hispanic or Native American.
    Without the right to self-governance we would not have the strong 
communities present across this country today, and without the right to 
collectively bargain we would not have the strong and growing economy 
that all Americans rely on.
    I look forward to continuing this discussion with individuals and 
experts on both sides of the issue.
                                 ______
                                 
    Chairman Roe. I thank the gentleman for yielding. Pursuant 
to committee rule 7(c), all subcommittee members will be 
permitted to submit written statements to be included in the 
permanent hearing record. And without objection, the hearing 
record will remain open for 14 days to allow statements, 
questions for the record, and other extraneous material 
referenced during the hearing to be submitted in the official 
hearing record.
    It is now my pleasure and privilege to introduce our 
distinguished panel of witnesses. Our first witness is Mr. 
Richard Guest. He is a staff attorney with the Native American 
Rights Fund in Washington, D.C. Mr. Guest is the lead attorney 
for the NARF on the Tribal Supreme Court Project, which is 
based on the principle that a coordinated and structured 
approach to tribal advocacy before the U.S. Supreme Court is 
necessary to preserve tribal sovereignty. Welcome, and thank 
you for being here.
    It is now my privilege to introduce our second witness. 
But, I would like to recognize for that privilege Mr. Courtney, 
our colleague.
    Mr. Courtney. Thank you, Mr. Chairman. And it is a 
privilege to introduce my friend and neighbor, the Chairman of 
the Mashantucket Pequot Tribal Council, Rodney Butler, who is 
here today to share his thoughts and perspectives on this 
issue. He is the leader of an extraordinary tribe in 
southeastern Connecticut which has literally transformed the 
landscape in terms of the contribution that they have made to 
employment and economic growth in that area. And Chairman 
Butler has been chairman since 2010, a challenging time with a 
difficult economy and has made great strides in terms of trying 
to achieve those goals.
    I worked with the tribe in terms of dealing with the 
leasehold term that BIA requires. And just a couple days ago, 
he cut the ribbon for a new mall that is adjacent to the 
casino; 900 new jobs, and there is a job fair that took place a 
few days ago because they need more. And that is music to 
everybody's ears.
    He is, as I said, a native of southeastern Connecticut, 
graduated from Marvelwood High School. He also graduated from 
the University of Connecticut. By the way, Mr. Chairman, did 
you know that the University of Connecticut women won the 
10th--
    Chairman Roe. Now, I did not want to talk about that this 
afternoon, being a UT alum.
    Mr. Courtney. As you know, he has an orange tie. I will 
just stop right there in terms of mentioning that. And, again, 
contributes greatly to non-profits and charitable groups 
throughout the area. The nice thing about being in a democracy 
is that friends and neighbors can work together on many issues, 
and sometimes agree to disagree on some. But I, again, look 
forward to hearing his testimony here today and certainly 
welcome him to our committee.
    And I yield back.
    Chairman Roe. I thank the gentleman for yielding. Mr. 
Butler, welcome.
    It is now my privilege to introduce one of our colleagues 
from California, Mike Thompson, to introduce our next panelist.
    Mr. Thompson of California. Thank you, Mr. Chairman. Thank 
you, and Ranking Member Polis for organizing this very, very 
important hearing.
    And for your courtesy in allowing me to come down and join 
you at the dais today to introduce a constituent of mine, Mr. 
Gary Navarro, who lives in my congressional district in Santa 
Rosa, California. He is an enrolled member of the Pomo Tribe 
from the Round Valley Reservation, and he is an employee at the 
Graton Casino and Resort in Rohnert Park, which is also in my 
congressional district.
    Mr. Navarro can speak first-hand on the important work 
unions are doing on behalf of workers employed in tribal 
casinos. He was part of the organizing effort at the Graton 
Casino and serves on the bargaining committee for UNITE HERE! 
Local 2850. He was also elected from Sonoma County as a senior 
chair to the California Rural Indian Health Board and serves as 
a Santa Rosa Little League Baseball board member.
    Accompanying Mr. Navarro are workers employed at tribally-
run casinos in California, including Thunder Valley, Cache 
Creek, San Pablo, and Graton Rancheria. The questions that you 
are going to be dealing with today are extremely important, and 
I am very happy that you are taking this up. And I know that 
Mr. Navarro will add much to your debate and to your hearing. 
So thank you, Mr. Chairman.
    I would also like to thank one of your other witnesses, 
Lieutenant Governor Keel for his service to his country, as a 
fellow Vietnam veteran. Thank you, and welcome home.
    Chairman Roe. Mr. Navarro, welcome.
    And it is my privilege now to introduce our last witness. 
The Honorable Jefferson Keel is the lieutenant governor of the 
Chickasaw Nation. Mr. Keel is a retired U.S. Army officer, with 
over 20 years of active duty. His combat experience included 
three years of service in Vietnam as an infantryman, where he 
received a bronze star, with V for Valor, two purple hearts, 
and numerous other awards and decorations for heroism. He has 
management experience in the private sector and tribal programs 
and operations. And as a fellow veteran, welcome home and thank 
you for your service.
    I will now ask our witnesses to stand and raise your right 
hand.
    [Witnesses sworn.]
    Let the record reflect the witnesses answered in the 
affirmative. You may take your seats, and thank you, gentlemen.
    Before I recognize your testimony, let me briefly explain 
our lighting system. You will have five minutes to present your 
testimony. When you begin, the light in front of you will turn 
green. When one minute is left, the light will turn yellow. 
When your time is expired the light will turn red.
    And we do have votes, so I am going to be pretty precise on 
the five minutes. We have votes later today, and I want to make 
sure we make those. At that time, I will ask that you wrap up 
your remarks as best you are able. Members will each have five 
minutes for questions.
    Now, Mr. Guest, you are recognized for five minutes.

 TESTIMONY OF MR. RICHARD GUEST, SENIOR STAFF ATTORNEY, NATIVE 
             AMERICAN RIGHTS FUND, WASHINGTON, D.C.

    Mr. Guest. Thank you, Chairman Roe, Ranking Member Polis, 
and distinguished members of this subcommittee. The Native 
American Rights Fund, NARF, is honored to provide this 
testimony; the purpose of which is to demonstrate that in 
furtherance of long-standing policies of Indian self-
determination, tribal self-governance, and tribal economic 
self-sufficiency it is time for this Congress to provide both 
clarity and parity for tribal governments under the National 
Labor Relations Act, the NLRA.
    For the record, NARF fully supports H.R. 511, as well as 
its companion bill in the U.S. Senate, S. 248.
    As you are well aware, the NLRA was enacted by Congress in 
1935 to govern labor relations in the private commercial 
sector. Under Section 2 of the NLRA, the term ``an employer'' 
is defined to include any person acting as an agent of an 
employer, directly or indirectly, but shall not include the 
United States or any state or political subdivision thereof.
    Therefore, workers in the public sector, employees of 
federal, state, and local governments, were not afforded the 
rights and protections of the NLRA. Based on sound policy 
determinations, Congress provided those governments an 
opportunity to choose how best to regulate union organizing, 
collective bargaining, and labor relations with their workers, 
given the essential and often times sensitive nature of their 
employment.
    So in this context, for tribal governments, parity 
encompasses the quality of being treated equally under the law, 
alongside federal, state, and local governments. Tribal 
governments are entitled to the same freedom to choose for 
themselves the appropriate time, place, and manner for 
regulating union activity on Indian lands and collective 
bargaining for their employees.
    H.R. 511 provides the necessary clarity and certainty, 
recognizing that those sound policy determinations apply with 
equal force to tribal governments.
    In terms of parity with the Federal Government, it was not 
until 1978--43 years after it passed the NLRA--that Congress 
enacted the Federal Labor Relations Act to regulate labor 
relations with federal workers. To meet the special 
requirements and needs of the Federal Government, Congress 
chose to exclude employees of certain federal agencies, limited 
collective bargaining with no right to negotiate wages, hours, 
or employee benefits, and eliminated the right to strike of 
federal workers.
    In terms of parity with state and local governments, 
according to the 2002 GAO report only 26 states and the 
District of Columbia had statutorily protected collective 
bargaining rights for their employees. Twelve states had 
allowed collective bargaining only for specific groups of 
workers, such as teachers and firefighters, and 12 states did 
not have any laws protecting the rights of its employees to 
collectively bargain.
    According to the GAO report, most state government workers 
entitled to collective bargaining rights under state law are 
all prohibited from striking. Instead, those states provide 
compulsory binding interest arbitration, a procedure not 
available under the NLRA.
    Mr. Chairman, we hope that you and each member of the 
Committee will recognize that each of the 566 federally 
recognized tribes, as governments, must have the opportunity to 
make their own policy judgments regarding labor relations on 
their reservations based on the values and priorities that best 
serve the needs of their community.
    In general, there are four areas of concern for Indian 
tribes. One, a guaranteed right to strike threatens government 
revenues and the ability of tribes to deliver vital services. 
Two, the broad scope of collective bargaining will undermine 
federal and tribal policies requiring Indian preference in 
employment. Three, preemption of the tribal power to exclude 
diminishes the ability of tribes to place conditions on entry, 
on continued presence, and on reservation conduct. And four, 
the potential for substantial outside interference with tribal 
politics and elections.
    Although there are several examples to choose from in my 
testimony, I provide summary of the Navaho Preference and 
Employment Act of 1985, and include as an attachment to my 
written testimony the collective bargaining regulations 
promulgated by the Office of Navaho Labor Relations.
    It was the legislative intent of the Navaho Nation Council 
to incorporate the most basic protections of the NLRA to tribal 
employees whom the council acknowledged were otherwise exempt 
from the NLRA. Included as attachment C is the Model Tribal 
Labor Relations Ordinance, the result of the great experiment 
with the tribes in the State of California in their gaming 
compacts, resulting in labor relations being granted in that 
state.
    So in closing, today, as a result of the successive Indian 
Gaming and the San Manuel decision, the NLRB no longer draws a 
distinction from whether the tribal business was located on or 
off reservation, but rather what it determines to be commercial 
activities of an Indian tribe versus what it deems to be 
traditional governmental functions.
    I see my time has expired, so I will end my testimony 
there, willing to take questions.
    Thank you.
    [The testimony of Mr. Guest follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    Chairman Roe. Thank you, Mr. Guest.
    Mr. Butler, you are recognized for five minutes.

TESTIMONY OF HON. RODNEY BUTLER, CHAIRMAN, MASHANTUCKET PEQUOT 
           TRIBAL COUNCIL, MASHANTUCKET, CONNECTICUT

    Mr. Butler. Thank you. Good afternoon, Chairman Roe, 
Ranking Member Polis, my good friend, Joe Courtney and 
distinguished members of the committee. I am Rodney Butler, the 
Chairman of the Mashantucket Pequot Tribal Nation in 
Connecticut.
    I want to thank you for inviting me to testify in support 
of the Tribal Labor Sovereignty Act because it is critically 
important to protect the sovereign rights of tribal 
governments. First, I would like to thank Congressman Rokita 
for introducing this legislation, and the nearly 50 bipartisan 
cosponsors of this legislation. Indian country has always 
received bipartisan support in Congress, and I hope this bill 
will continue in that tradition.
    H.R. 511, the Tribal Labor Sovereignty Act, is a very 
straightforward bill. The legislation expressly confirms that 
Indian tribes are on equal footing with state and local 
governments under the National Labor Relations Act. That is all 
that it does. It reaffirms the fact that tribes are sovereign 
governments, and should be treated that way under all federal 
laws.
    The issue of tribal government parity has been a priority 
in Indian country for decades. We have successfully worked with 
Congress to reaffirm our tribal sovereignty under the Violence 
Against Women Act, federal unemployment taxation, general 
welfare, tax issues, and a host of other laws. Today, we 
continue to fight for tribal parity on issues relating to 
municipal bonds, pensions, the bankruptcy code, and the NLRA. I 
am pleased that all of these efforts have been supported in 
Congress, again, on a bipartisan basis.
    However, I am concerned today that some people have tried 
to portray this legislation as being anti-union, and I 
wholeheartedly disagree with that assessment. I would like to 
share with the committee our experience with organized labor at 
our Foxwoods gaming facility.
    In 2007, the United Auto Workers filed a petition with the 
NLRB to organize the dealers at Foxwoods. Applying its wrongly-
decided San Manuel standards, the NLRB asserted jurisdiction 
over the Mashantucket Pequot Tribal Nation and our Foxwoods 
Casino. At that point, our tribal council had to make a 
decision: pursue this issue in the courts, which would have led 
to years of distracting and hurtful litigation, or work with 
the UAW to help them understand how they could organize and 
protect collective employee rights under our tribal labor laws.
    Our government decided to reach out to the UAW, explain 
that this was an issue of tribal sovereignty, and encourage the 
use of tribal law to reach a solution that respected both 
tribal sovereignty and workers' rights to organize. These 
discussions gave the Tribal Nation an opportunity to educate 
the UAW regarding the importance of tribal sovereignty, the 
importance of tribal culture and tradition, and the 
significance of tribal laws and institutions that were in 
place.
    At the same time, it gave the UAW an opportunity to educate 
the Tribal Nation on the importance to the union of protecting 
employee rights to organize and the UAW's efforts and successes 
over the years protecting those rights. Both the UAW and the 
Tribal Nation were open to listening and learning from each 
other.
    Over a period of time, we reached an agreement with the UAW 
to pursue collective bargaining under tribal law, and entered 
into a collective bargaining agreement with the UAW.
    I think both the tribe and the UAW believe this agreement 
has worked well for both sides. In fact, today three additional 
unions represent our government employees at Mashantucket. They 
include the International Union of Operating Engineers, the 
International Association of Firefighters, and United Food & 
Commercial Workers. All of these unions have collective 
bargaining agreements with our tribe.
    The San Manuel decision was not only a complete reversal of 
the NLRB's recognition of the tribes as sovereigns, it is also 
an affront to Indian country. It suggests that Indian tribes 
are incapable of developing laws and institutions to protect 
the rights of employees who work on our reservations.
    Our experience proves nothing could be further from the 
truth. The Mashantucket Pequot labor relations law protects the 
rights of employees to organize, to vote to select union 
representation in secret ballot election, and to bargain 
collectively with their employer. Elections are conducted and 
the law is enforced by the Mashantucket Employee Rights Office, 
a separate government agency headed up by a labor lawyer with 
over 25 years of experience, including eight years of 
experience as a field examiner and attorney for the National 
Labor Relations Board.
    Similar to other public sector labor relations laws, our 
labor law requires the parties to negotiate in good faith. And 
when negotiations fail to result in a contract, the dispute may 
be submitted to a binding interest arbitration. The law 
provides for a dispute resolution by a three-member panel 
selected by the parties.
    All of these developments have been praised by unions, 
labor lawyers, and even former NLRB officials alike. In 
addition to our labor law, the Tribal Nation has enacted 
legislation allowing employees the right to challenge 
terminations from employment and suspensions of five days or 
more. We adopted ERISA as tribal law, we have created remedies 
for denial of health benefits, and a tribal civil rights code 
allowing employee discrimination claims.
    Our tribe made the sovereign decision to permit collective 
bargaining with unions when designated by the majority of the 
employees under our laws. It should be the right of any 
sovereign government to make decisions that are best for their 
people.
    H.R. 511 simply allows tribal governments to make those 
decisions. Section 2 of the NLRA expressively excludes the U.S. 
government and state and local governments from the Act's 
jurisdiction, and that makes sense. Sovereign bodies have 
unique employment concerns, and the sovereign is best suited to 
address those concerns. We seek to be treated just like every 
other sovereign under the NLRA; nothing more, nothing less. 
That is why this legislation enjoys wide support in Indian 
country.
    The National Congress of American Indians and organizations 
that represent all Indian tribes in the United States 
unanimously adopted a resolution supporting this legislation. 
In fact, we have not heard from any tribe opposing this bill. 
With over 560 fairly recognized Indian tribes, it is truly 
remarkable to have such unanimity in Indian country.
    Mr. Chairman, the Tribal Labor Sovereignty Act simply 
reaffirms our sovereign rights, and we urge the committee to 
pass this legislation and move quickly to get the law enacted. 
Thank you.
    [The testimony of Mr. Butler follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Roe. Thank you, Mr. Butler, for your testimony.
    Mr. Navarro, you are recognized for five minutes.

   TESTIMONY OF MR. GARY NAVARRO, SLOT MACHINE ATTENDANT AND 
 BARGAINING COMMITTEE MEMBER, UNITEHERE LOCAL 2850, THE GRATON 
          CASINO AND RESORT, ROHNERT PARK, CALIFORNIA

    Mr. Navarro. Congressman Roe, Ranking Member Polis, and the 
members of the Subcommittee. Thank you for inviting me to 
testify today. My name is Gary Navarro. I am from Santa Rosa, 
California. I am an enrolled member of the Pomo National and a 
worker at Graton Casino and Resort in northern California. 
While I am appearing here today as a Democrat witness, I am a 
registered as a Republican.
    As a Native American, I am strongly opposed to the idea 
that in the name of my heritage, one of the most important 
rights Americans have--namely the right to form a union and 
collectively bargain--would be taken away from thousands of 
people like me who work in a Native business.
    I have become active in my union because of unjust 
treatment of casino workers by the managers and how nothing 
could be done about even sexual harassment because of 
sovereignty. Exercising our rights to organize turned out to be 
the only way to protect ourselves and our coworkers. Please do 
not strip us of these rights.
    My grandmother and her children grew up on the Round Valley 
Reservation in Covelo, California. My family has lived there 
many generations. People there were poor, they did not have an 
education. There is much crime there because of a lot of 
alcohol and drug abuse leading to violent crimes.
    My grandmother left the reservation at a very young age to 
bring her family to Santa Rosa because she didn't want them to 
deal with the same life of poverty. My whole life, my grandma 
has taught us to hold our own and stand up for what is right.
    As I grew up, she always would teach us our heritage and to 
be proud of who we are. But also to be hard-working and 
understanding towards others. Today, I am a slot attendant at 
Graton Casino. In total, there are about 2,500 employees at the 
casino, but only five are Native Americans and one of them from 
the Graton Rancheria. No managers are Native, the casino is 
managed by Station Casino on behalf of the tribe.
    I have seen sexual harassment at the casino. A general 
manager going up to women telling them if they want promotions 
they had to sleep with him. The women were fired. We all 
complained. Managers at the Stations Casinos told us it was a 
sovereign nation. It was bad enough that Title VII of the Civil 
Rights Act doesn't apply to Native businesses.
    Congress should not make the situation worse by taking away 
protections under the National Labor Relations Act. The NLRA 
enables workers who have been subjected to harassment and other 
forms of discrimination to get together and complain about it. 
Take away the NLRA, you don't only have sexual harassment but 
no ability to speak about it.
    I was also part of an organizing effort to help collective 
bargaining at Graton. I have never been in the union before, 
but we needed the union to help us organize ourselves so we 
could speak up about abuses without having to worry about our 
jobs being taken away from us. Even though Stations Casino's 
management was opposed to having a union, the Graton tribal 
leadership went and told them to back off.
    The union is recognized now, and we are at the end of our 
negotiations for the first contract right now. The union and 
tribe worked together to help the tribe pass their compact in 
Sacramento.
    I cannot sit back and watch and see legislation that would 
take the rights to organize and collective bargaining away from 
every worker at Tribal Enterprises in the name of Native 
heritage. It is especially troubling when I have family members 
who were all in the major wars: World War I and II, the Korean 
War, the Vietnam War. And I had relatives who died in that war. 
Spilling blood for an American flag has always been something 
my family has been proud of.
    My family died for these rights and for everyone to have, 
not just for Native Americans to have but for all races to 
have. These are rights that they believed everyone should have. 
Even though casinos are on a piece of Native American land, it 
is still America. It is embarrassing as a Native American to 
think that this legislation could pass and my coworkers have no 
rights because my band of brothers, my family, my heritage took 
them away thinking it was okay, when it is not.
    I would be pleased to answer any questions you have.
    [The testimony of Mr. Navarro follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Chairman Roe. Thank you, Mr. Navarro, for your testimony. 
Now Lieutenant Governor, Mr. Keel, you are recognized for five 
minutes.

  TESTIMONY OF THE HON. JEFFERSON KEEL, LIEUTENANT GOVERNOR, 
                CHICKASAW NATION, ADA, OKLAHOMA

    Mr. Keel. Thank you, Mr. Chairman and other members for the 
opportunity to speak before you today. To us, today's 
discussion is solely about sovereignty. It is about our 
government-to-government relationship with the United States, 
and it is about the Federal Government living up to the 
principles that have shaped successful self-determination 
policies for the past 40 years.
    All governments must be afforded the respect all 
governments are due. We accordingly call on Congress to correct 
this understanding that arises from the NLRA not expressly 
including tribal governments in its list of those that are 
already exempt from the NLRA. As recognized since the earliest 
days of this republic, the Chickasaw Nation is a sovereign 
government. Acting under our constitution and laws, our leaders 
provide citizens with a broad range of government services, 
including health care, housing, and education.
    And our government's direct operation of economic 
development initiatives and the revenues we raise from them are 
critical to those programs. Fundamental principles of federal 
law provided American Indian tribal governments should be 
treated as other governments are under federal law, including 
treatment with respect to the right to government-employee 
labor relations.
    When Congress enacted the National Labor Relations Act, or 
``the Act,'' in 1934 it expressly exempted government 
employers. For seven decades the National Labor Relations 
Board, or the Board, properly construed the act as exempting 
the American Indian tribal governments. In 2004 however, the 
Board moved away from that settled practice and began to assert 
jurisdiction over tribal governments based on a case-by-case 
determination that focused not on the sovereign status of 
tribal governments but on an inquiry as to whether the tribal 
government's actions were sufficiently governmental in nature.
    This is an inquiry for which neither the Act nor other 
common law provide any meaningful criteria and is applied to no 
other government. The Board applies this test to not federal, 
not state, not municipal; only tribal.
    In 2011, it was alleged that the Chickasaw Nation violated 
the NLRA at our WinStar World Casino. We contested those 
charges, asserting both our fundamental status as sovereign 
nations and our treaties with the United States. Earlier this 
month, we won a ruling from the Board that recognized our 
treaties as barring NRLA jurisdiction over our workplaces. Our 
win is a long overdue victory for sovereignty, but it remains 
incomplete.
    First, it rests on treaty provisions that are unique to us 
and our sister sovereign, the Choctaw Nation of Oklahoma. 
Instead of relying on broader federal law principles, the Board 
appears to instead have found the narrowest path possible for 
coming to the right conclusion.
    Second, the test that the Board applied is only 10 years 
old. More to the point, that test reversed 70 years of the 
Board's prior understanding of the law. What assurances do we 
have, today, that the Board will stay with this understanding? 
The governments of Indian country deserve stability and 
certainty under federal law.
    Tribes have demonstrated their ability, as you have heard, 
to address these issues on their own. For example, the tribal 
governments in California have negotiated compacts that address 
tribal workplace unionization. That may have been a sound 
decision by those tribal sovereigns. It may not be one that all 
tribal governments or even state governments might make. 
Certainly, it is not a decision that the Board should make for 
tribal governments.
    Franklin Roosevelt himself argued for not subjecting 
governments to the NLRA, which he emphasized, was developed for 
purposes of regulating private enterprise labor relations. His 
caution was well founded and should apply with respect to all 
governments, including tribal governments and their sovereign 
rights to regulate their own government labor relations.
    The Tribal Labor Sovereignty Act would provide Indian 
country with the stability and certainty it deserves, and the 
Chickasaw Nation accordingly calls on Congress to correct its 
prior error by adding tribal governments to the list of those 
already exempt from the NLRA.
    Thank you again for inviting me to appear. I urge you to do 
everything you can to ensure swift passage of the Tribal Labor 
Sovereignty Act.
    Thank you.
    [The testimony of the Hon. Keel follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
   
    
    Chairman Roe. Thank you, Lieutenant Governor. And again, 
thank you for your service to our country.
    I am going to yield myself five minutes and get started. 
And really, I think this is about as clear an issue as I have 
ever seen. And I am amazed that you can get 566 Indian tribes. 
I was at the doctors meeting this morning, with 13 of us and we 
couldn't agree on anything. So I am astonished that you have 
that. If you have watched the Congress operate, we will never 
agree 100 percent. So it is pretty amazing. Look, I think this 
is fairly simple. Let me just show you how I see it.
    One is, either you are sovereign or you are not. You can 
either make your decisions or you cannot. The NLRA--and I want 
to read this--does not cover all employees and employers in the 
United States. For example, public sector employers--that is 
state, local, and Federal Government employers--are covered by 
the Railway Labor Act; that is airlines and railroads. 
Agriculture labor and supervisors are not covered under the 
Act, 29 United States Code.
    So, it is clear, you are correct, Mr. Keel, you made the 
point that it was just left out. And then, 70 years of 
basically what we thought was law, changed in 2004.
    So, I see this very clearly. We should clear it up with one 
small bill--it is a very simple bill--and it would then allow 
you to make those decisions. I am for making those on a local 
basis. And I think Mr. Butler made a great point in his 
testimony, and I will turn it over to you: this is not anti-
union. If you want to unionize where you are, that is perfectly 
okay to do. And people have, clearly, and you have worked with 
the unions.
    I have said this since I have been on this committee and 
the time I have been in Congress. It is a right in this 
country; if you want to do it, you can. If you are fully 
informed, you want to vote for a union, you can do that. I grew 
up in a union household. I absolutely understand how that 
works.
    But you also have a right not to unionize if you don't want 
to. And I think your point was well taken, Mr. Butler, and if 
you would like to comment on that I would like to hear your--
    Mr. Butler. First, my condolences to UT. I apologize for 
being a Husky. But no, absolutely. I mean, look, we have a 
tremendous relationship with our unions. We work hand-in-hand 
on many things. In fact, we just worked on an expansion of the 
gaming bill in the state of Connecticut that was, you know, in 
concert with union support. And so, those are union jobs, they 
are going to get impacted. And we realized that because of the 
way that we care about our employees. We worked with them 
together to get that legislation passed. And so, we work 
together throughout the community in charitable organizations, 
and it has been a very successful partnership, again that we 
chose to enter into.
    Chairman Roe. And I think, Mr. Keel, I want you to comment. 
I think you made a point a minute ago about--at least the way I 
understand it--the NLRB made this ruling was that if you are 
using the profits, some of the profits, of your casinos for 
travel, for services in the tribe. Am I correct on that?
    Mr. Keel. That is correct, yes, sir.
    Chairman Roe. And when you do that, that would seem to me 
like if you are a sovereign nation you need those revenues to 
be able to provide the services that your constituents expect 
from you. Am I correct?
    Mr. Keel. Yes, that is correct. Yes, sir.
    Chairman Roe. And have I missed the point at all in this? 
It is a fairly simple, straightforward--I don't see how there 
could be much discussion. Either we have--in these treaties 
that we did with 566 tribes in this country--allowed you to be 
a sovereign nation or we have not. And I think we have. Any 
comments?
    Mr. Guest?
    Mr. Guest. I am sorry, Mr. Chairman--
    Chairman Roe. I said the point is, what we have done is, in 
this country we have either said to these treaties that we have 
had with the nations, the Native American Nations--that you are 
a sovereign piece of property or you are not. And I think 
clearly you are, and are able to make your own decisions. Am I 
interpreting that wrong?
    Mr. Guest. No, sir. I mean, that is exactly the point that 
tribal leaders are bringing to you today is that they are no 
different than states, than the United States. The challenge is 
that Congress was silent with respect to the language in the 
NLRA, and due to that silence it has created the opportunity 
for a lot of confusion in this area of the law.
    Chairman Roe. Mr. Polis, you are recognized for five 
minutes.
    Mr. Polis. Thank you, Mr. Chairman. My first question, for 
Mr. Guest. And what is the implication of this bill, if passed, 
on the applicability or the precedent that is set with the 
applicability of the Americans with Disabilities Act, OSHA, 
FLSA?
    Mr. Guest. Well, H.R. 511 only addresses Congress' silence 
in the NLRA in including tribes in the exemption to the 
definition of employer, along with state and local governments 
in the Federal Government. It doesn't have any impact on any 
other federal law.
    Mr. Polis. So how does one differentiate, for instance, 
among the right of those with disabilities to have reasonable 
accommodations at work versus the right of workers to organize? 
I mean, why this particular set of rights as opposed to some of 
the other national protections that exist even in tribal 
nations?
    Mr. Guest. If my recollection serves me, Indian tribes are 
exempted from the definition of employer in the Americans with 
Disabilities Act. However, in other employment legislation, 
Congress again has been silent with respect to Indian tribes. 
The courts have interpreted that silence to create the rule 
regarding laws of general application apply to Indian tribes, 
in the employment context, saying that those laws like FLSA and 
OSHA do apply.
    Mr. Polis. And in your opinion, should those laws not apply 
to our sovereign nations, OSHA and FLSA?
    Mr. Guest. Well, I think the difference here is that with 
respect to the NLRA and its impact on tribal sovereignty is 
vastly different than the impact with respect to OSHA or the 
Fair Labor Standards Act. It really is about safety and health 
regulations, wages and overtime, which is a very different set 
of rules versus union organizing on the reservations. Inviting 
third parties to come on to the reservation and the tribes 
having no ability, no authority, to regulate their presence.
    Mr. Polis. Reclaiming my time, Mr. Navarro, do you, as a 
general principle, do you support the sovereignty of our Native 
American nations?
    Mr. Navarro. Yes, I support sovereignty.
    Mr. Polis. And so how would you view that this bill would 
impact both workers' rights, and how do you reconcile your 
support and the support of many of us of Native American 
sovereignty with your support of workers' rights?
    Mr. Navarro. The workers' rights, they are just given 
rights that people have. You can't really go and take them away 
and say this is a sovereign nation. This is America. Honestly, 
it is America. You can't just say I am taking your rights today 
because it is a sovereign nation. You can't use that against 
people. Those are hardworking Americans who are busting their 
butts in their workplace for these tribes. And to come in and 
say we are going to use sovereignty against you to take rights 
away isn't fair to them.
    Mr. Polis. Mr. Butler, with regard to employees of Native 
American nations' enterprises that are not affiliated with a 
tribe-- either members of other tribes or non-Native 
Americans--they clearly don't have the same rights under tribal 
governance. And my question is: is there any mechanism under 
this bill where non-tribal employees could somehow influence 
the process around the conditions of their employment if they 
are not enrolled members of the tribe?
    Mr. Butler. If they are not enrolled members of the tribe? 
So we treat all of our employees--
    Mr. Polis. About 75 percent, I think, of the employees, I 
understand across the industry are not members of the tribe.
    Mr. Butler. We have non-native employees, we have native 
employees, who aren't enrolled members of our tribe, as well, 
and we treat them all the same, right? And again we have 
chosen, as Richard spoke to, the other laws that don't 
necessarily apply to Indian country, you know. That is our 
sovereign right to accept those and apply those. And we have 
chosen to do so. In this case, again, we have put in place our 
own labor law. We have a disability law; we have a civil rights 
code. And so those all, on our sovereign actions, have been 
applied to all of our employees.
    Mr. Polis. And if it was a tribe that didn't have those 
protections, would you then argue that those protections simply 
shouldn't be afforded to the employees? Or should there be some 
federal or national backstop on that?
    Mr. Butler. Well again, in our case as an independent 
sovereign, just as each state is independent we have chosen to 
afford those opportunities to our employees. Now, same thing 
with states. Not every state has afforded those opportunities, 
as well, under the NLRA. But we have, so we look at it in the 
same fashion.
    Mr. Polis. Yield back the balance of my time. Thank you.
    Chairman Roe. I thank the gentleman for yielding.
    Dr. Foxx, you are recognized for five minutes.
    Ms. Foxx. Thank you, Mr. Chairman. And I thank our guests 
for being here today.
    Mr. Guest, just last week, in NLRB v. Little River Band of 
Ottawa Indian Tribal Government, a divided U.S. court of 
appeals for the 6th Circuit ruled the NLRB may apply the NLRA 
to a Michigan casino run by the Little River Band of Ottawa 
Indians on tribal land. How does a treaty with the Little River 
Band of Ottawa Indians differ from the Chickasaw treaty?
    Mr. Guest. Well, in the Little River Band case they did not 
make the treaty argument directly, although they have a treaty 
with the United States. And the language in their treaty and 
the language in the Saginaw Chippewa, which is the next case up 
in front of the 6th Circuit Court of Appeals, the distinction 
is that there is much more general language. They don't have 
the same language as in the Chickasaw treaty that basically 
precludes any laws enacted by Congress unless it is made 
specific to the tribe.
    I mean, it is very narrow language for the Chickasaws and 
the Choctaws that the board recognized. And the impact is going 
to be felt because not all federally recognized Indian tribes 
have treaties with the United States. Indian tribes entered 
into relationships with the United States in a variety of ways.
    And so, not every tribe is going to have the benefit--even 
those with treaties, as my friend Jefferson Keel indicated--
have that good of language. It is just the exception, not the 
rule.
    Ms. Foxx. Thank you. Let me follow up, if I could. If the 
NLRB determines it has jurisdiction over an Indian tribe, then 
what will become of the tribal labor laws?
    Mr. Guest. Well, that is a good question. And in the San 
Manuel case it came up, as well. Initially, with the model 
tribal labor relations ordinance in California, now with the 
assertion of jurisdiction by the NLRB in Little River Band, 
there are existing tribal laws. And what the NLRB has said is, 
well, those that conflict with the NLRA are no longer 
applicable.
    So now there is going to be litigation over, well, what 
conflicts with the NLRA and what doesn't, creating more 
litigation and more uncertainty. The decision by the NLRB in 
Chickasaw and the decision by the 6th Circuit in the Little 
River Band case again illustrate for us why Congress needs to 
act and act quickly with respect to H.R. 511.
    Ms. Foxx. Thank you.
    Lieutenant Governor Keel, the NLRA includes the right to 
strike. Would a strike at your casino affect government 
operations in the Chickasaw Nation?
    Mr. Keel. Absolutely. I would liken it to what happened 
with the air traffic controllers strike a number of years ago 
to this country, where a group of individuals basically 
crippled the transportation system of this whole country. We 
obviously are not on as large a scale, but that is the type of 
activity that would interfere with what we are doing.
    We depend on the revenues to make sure that we provide 
services, whether it be housing, health care, or emergency 
assistance to our citizens. And we could not stand for that.
    Ms. Foxx. Thank you. Let me go to one more question. I 
believe I have time. In July 2013, a Board panel concluded that 
it had jurisdiction over the Chickasaw Nation. Can you tell us 
what was the basis for that holding? And have the treaties 
between the Chickasaw Nation and the United States changed 
since 2013?
    Mr. Keel. No, ma'am. They have not changed. The treaties 
have not changed and will not change. But thank you for that 
question. The specific language that applies to the Chickasaw 
is that no laws--as Mr. Guest has stated--would ever be passed 
that would be contrary to the Chickasaw Nation, or unless it 
was passed specifically for and to the Chickasaw Nation.
    Ms. Foxx. Thank you, Mr. Chairman.
    I yield back.
    Chairman Roe. I thank the gentlelady for yielding.
    I now recognize our ranking member, Mr. Scott, for five 
minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Lieutenant Governor Keel, apparently some federal laws 
apply to tribal activities and some don't. If you believe in 
sovereignty, why shouldn't they all apply or none of them 
apply?
    Mr. Keel. Thank you. The Chickasaw Nation, we have adopted 
laws, ordinances, and employee relations that cover all of our 
employees. And we treat, as you have heard, all of our 
employees the same. We go through a process every year at a 
master planning session, where we sit down and we look at what 
our needs of our employees are in terms of benefits. They--
    Mr. Scott. We are talking about, in this hearing, we are 
just talking about NLRB. What about other laws of general 
application? Why shouldn't they all apply on tribal lands or 
none of them apply? How do you tell what applies and what 
doesn't?
    Mr. Keel. Well, the federal laws that we operate under, 
many of our programs are federally funded so we operate by 
those rules. Many of the benefits that are afforded to our 
citizens are the derivative of that. The Fair Labor Standards 
Act, we operate under those rules and regulations and those 
laws, so--
    Mr. Scott. Should you have to?
    Mr. Keel. We don't feel that we should have to, but we do.
    Mr. Scott. So I guess the question, again, is why should 
some apply and some not? What would happen if the business 
involved hires a vet. The vast majority of employees are not 
Indians. Should the NLRB apply to that kind of business?
    Mr. Keel. If it is a tribal business operated by the tribal 
government, by the Chickasaw Nation, the fact is the answer is 
no, the NLRB should not be. We are capable of developing our 
own laws and rules and regulations that would far exceed those 
needs. In fact, the wages of our employees meet or exceed any 
of the standards. The benefits of our employees are better. 
They have better health care, better benefit packages than 
anywhere around. So we don't feel that the NLRB has any say at 
all in our affairs.
    Mr. Scott. What about other laws? OSHA, should that apply? 
Occupational Safety and Health Act?
    Mr. Keel. Again, sir, as many of our programs that we 
operate are covered under those federal laws we operate under 
those rules. And we do make sure that we are within the law.
    Mr. Scott. Why should you have to operate under that and 
not NLRB law?
    Mr. Keel. As I have said, sir, I believe that we are 
capable of developing our own rules, laws, and tribal 
ordinances that would actually improve on those conditions.
    Mr. Scott. The discussion involves businesses on Indian 
land. There have been occasional land swaps, where you take 
some Indian land and trade it with some downtown land so that 
the hotel is actually on Indian-owned land. Should these 
exemptions apply to a downtown casino?
    Mr. Keel. Once again, the Chickasaw Nation is a sovereign 
nation and we operate our businesses as a sovereign nation. So 
our laws apply to all of our businesses regardless of where 
they are located as long as they are within--on trust lands, as 
you would refer to.
    Mr. Scott. Well, I mean, if you swapped land and had trust 
land and really downtown, and had a downtown casino, should 
that be considered exempt from the various laws that we are 
talking about?
    Mr. Keel. Sir, there is a process by which the lands are 
taken into trust that we go through a lengthy process to 
determine whether or not these lands are placed into trust. 
Once that process is completed, then yes, we operate those 
businesses just as any of the other business we operate as a 
sovereign nation.
    Mr. Scott. And you would be--you would expect to be exempt 
from the NLRB in that situation, where you have what is 
essentially a downtown casino that you own?
    Mr. Keel. If it is on our lands, yes, sir.
    Mr. Scott. Thank you, Mr. Chairman.
    Chairman Roe. I thank the gentleman for yielding.
    Mr. Salmon, you are recognized for five minutes.
    Mr. Salmon. Thank you. Mr. Guest, my first question is 
going to be for you. Is it your understanding that state and 
federal governments, that their employees have to operate under 
OSHA?
    Mr. Guest. I am not an employment or a labor law attorney.
    Mr. Salmon. My understanding is that they are. In fact, if 
anybody can dispute that--in fact, the ADOT folks, as they are 
building highways--they have to comply with OSHA regulations. 
And so this isn't really about whether or not you guys want to 
pick and choose the laws. You want to be treated the same as 
the other carve-outs, whether it is the Federal Government or 
the state governments. In fact, you had mentioned in your 
testimony that Section 2 of the NLRA states that the term 
``employer'' is defined to include any person acting as an 
agent of an employer directly or indirectly, but shall not 
include the United States or any wholly-owned government 
corporation or any Federal Reserve bank, any state of political 
division thereof.
    And so, they are okay with not having those guys comply 
with the NLRB rules and regulations, but they have kind of 
singled you out. I hear some of the argument on the other side, 
asking you if you should be exempt from OSHA. Well, the states 
aren't exempt from OSHA, the Federal Government is not exempt 
from OSHA. And so all you are asking for is to stop being 
treated like some second class government entity. Isn't that 
what we are saying?
    Mr. Guest. I think that you have brought an argument to the 
table that we have not directly thought of, Mr. Salmon. I think 
that is exactly right, is that the fact that federal and state 
employees, or governments, are not exempted from OSHA, from the 
Fair Labor Standards Act, and others--again, brings the parity 
issue right back into focus: tribes should not be second-class 
governments.
    And again, the difference between those laws and the NLRA 
is the fact that over the course of time tribes are working 
directly with folks at the Department of Labor who enforce the 
employment laws. They are dealing directly with OSHA, and 
enacting statutes that reflect OSHA. That, as Mr. Butler said, 
they have enacted ERISA, they have adopted ERISA as tribal law. 
That is the act of a sovereign, that they are enacting their 
own laws. Some tribes actually increase the protections for 
their workers over and above what the federal minimum 
requirements are. So, again, it is allowing tribes to act in 
that sovereign capacity.
    Mr. Salmon. I guess I just resent you being singled out as 
the one government entity that has to either--you know, has to 
accept this or somehow you are not caring about the tribal 
members that you have purview over. I don't buy that. In fact, 
I think that either--I think this is very, very consistent with 
the other laws that are on the books. And that, you know, these 
other government entities are exempted; then if they are 
exempted, you should be exempted. That, to me, is pretty cut 
and dry and the way it ought to be.
    Lieutenant Governor Keel, in your testimony you did an 
excellent job emphasizing the basis for, and the importance of, 
tribal sovereignty. And I am a proud co-sponsor of the bill for 
the reasons you stated. And Todd Rokita is a great American. So 
thanks for introducing this bill. Do you anticipate much 
opposition to the bill? And then if so, what interests do you 
believe are going to be interested in restricting the rights of 
sovereign tribes to handle their own affairs in this area?
    Mr. Keel. Thank you, Mr. Chairman. And thank you for being 
a co-sponsor of the bill. I am not sure of the opposition. I am 
not sure what level of opposition we would receive. I am not 
sure why they would oppose tribal governments being treated as 
every other government in this country, as it has been 
recognized. Our inherent sovereignty is recognized in the 
Constitution of the United States in Article 1. I am not sure 
why there would be any opposition to this. This simply 
clarifies misunderstandings that have arisen with the NLRB over 
the past 70 years. So--
    Mr. Salmon. Well, if the NLRB is going to be consistent 
then it ought to go after the state and the federal 
governments, as well, if it is going to be consistent. All we 
are asking for is to quit having this darn double standard. 
Isn't that right?
    Mr. Keel. Yes, sir. Yes, sir, absolutely.
    Mr. Salmon. Okay.
    I yield back the balance of my time.
    Chairman Roe. I thank the gentleman for yielding.
    Mr. Pocan, you are recognized for five minutes.
    Mr. Pocan. Thank you, Mr. Chairman, and thank you to our 
witnesses.
    So let me try to follow up on Mr. Salmon and Mr. Polis' 
question, and even the chairman when he said you are either 
sovereign or you are not. And as I hear some of this 
discussion, it sounds like there is more than one inconsistency 
with how the law is applied and, Mr. Guest, I think 
specifically the questions that were asked by Mr. Salmon and 
Mr. Polis. So it sounds like it is not just this one law where 
you are treated differently, but it sounds like there is other 
labor, consumer protection, and environmental laws that are 
treated differently.
    So if I understand right, the Fair Labor Standards Act has 
been applied to tribes. Correct?
    Mr. Guest. Correct.
    Mr. Pocan. And I believe the OSHA we were talking about has 
been applied to tribes?
    Mr. Guest. Correct.
    Mr. Pocan. Okay. ERISA, the federal pension law?
    Mr. Guest. Correct.
    Mr. Pocan. Age Discrimination in Employment Act?
    Mr. Guest. I believe there is an exemption for tribes. Not 
under the age discrimination, the Americans with Disabilities--
    Mr. Pocan. Yes, not the ADA but specifically that. So I 
guess when I look at that, and when we asked before about that 
we said, well, courts have made this determination. So I guess 
my question is, are you looking for a legislative fix to all of 
these areas? Because clearly, you are either sovereign or you 
are not is the argument, then there are some other things that 
need fixing. So are you looking for a legislative fix across 
the board on these issues?
    Mr. Guest. I don't believe so. I think that what we are 
looking for is exactly what the testimony is; is about parity 
with respect to the way Congress is treating tribes with 
respect to labor relations. It allows state governments, local 
governments, and the Federal Government to enact their own 
labor relations laws for their employees, but does not allow 
tribal governments to do that.
    Mr. Pocan. But if understand it right, local governments 
aren't under some of the same things that you are under and 
some of these other laws. So I mean if you really want the 
parity shouldn't we address each of these areas? Or are we just 
going after labor unions as an issue? I mean, that is I am just 
trying to understand--
    Mr. Guest. I think it is--
    Mr. Pocan.--the consistency, I think, it would be all these 
areas.
    Mr. Guest. I think it is a policy decision that is 
considered by tribal leaders with respect to where the 
challenges are. As a result of treaty-making, Indian tribes 
ceded much of the land in this country over to the United 
States and also ceded much of their authority--
    Mr. Pocan. Sure.
    Mr. Guest.--outside of their own lands. And as a result, 
they have this unique relationship with the United States. It 
is the same principle that applies under federalism with the 
state governments and United States government.
    Mr. Pocan. Sure.
    Mr. Guest. You know that certain powers were ceded to the 
central government, and those--
    Mr. Pocan. Yes, but perhaps I am misunderstanding it. But 
wouldn't all of these issues that I mention that you said apply 
to you that aren't applying to local units of government? 
Wouldn't that also be then something that needs to be fixed. I 
mean, it seems like we are picking one little area, but it 
sounds like we found about five or six areas at least that 
there is some inconsistency on.
    Mr. Guest. Well, again, I don't think anyone would argue 
that there is a need for safety and health regulations in the 
workplace across the board or that there is a need for a 
minimum standard with respect to the Fair Labor Standards Act. 
That there are minimums, and the tribes and tribal leaders are 
looking at those and determining for themselves, no, that 
federal law works for us. We are going to enact it as tribal 
law.
    Mr. Pocan. But then doesn't that make you pick and choose 
which laws? Because I understand you could have, under your 
sovereignty, labor laws. You have got unions in your 
facilities, you do not have unions in your facilities. Great 
example, but all these other things you are now saying there 
are minimum standards, that is why you comply with them. But 
there is still a direct inconsistency with some of these other 
laws.
    I mean, so I guess, you know, if we make it you are 
sovereign or not we should fix things across the board and not 
just pick on the labor relations. Because I understand, 
Lieutenant Governor Keel, your argument was that if the 
blackjack dealers struck it would be a--what was the exact 
term?--it would cripple government operations.
    I might argue with that a bit. I think, you know, that may 
not cripple your government operations. But you are picking and 
choosing this is the one law you want to fix on, but not all 
the other laws.
    You just said there are certain minimum standards you have 
to have for safety, therefore you are complying with OSHA. But 
really, you probably shouldn't be under OSHA, by the argument 
you are making today. So I am just wondering how we come across 
the board to fix it, or why we are picking and choosing which 
ones we want to attack and which ones we don't want to attack. 
Because I think it is kind of a holistic approach. You are 
sovereign or you are not, then we should really have everything 
included or else we are really not doing our jobs.
    Mr. Guest. Well, again, there is the limited nature of 
sovereignty with respect to the states themselves. They have 
chosen to limit their sovereignty, as the tribes have chosen to 
limit their sovereignty in their relationship with the United 
States.
    Again, I just would stress the fact that the NLRA is 
fundamentally different with respect to what it provides and 
authorizes: third parties coming on to Indian lands, organizing 
employees, the ability to interact in such ways that could 
interfere with political elections. And that is the concern 
that tribal leaders have brought to Congress, that concern. Not 
concerns about safety standards, not concerns about wages and 
overtime. It is about unions coming on to reservations.
    Chairman Roe. I thank the gentleman for yielding.
    Mr. Allen, you are recognized for five minutes.
    Mr. Allen. Thank you, Mr. Chairman, and thank you to our 
panelists for appearing here today. I think we all agree today 
that tribal sovereignty is a long-standing treaty between 
tribal nations and the United States. And, you know, I will 
remind our colleagues today that we are talking about the NLRB 
infringing on the rights of Native Americans and our concern 
for that. And that is the subject of the day. We can take up 
the rest of these issues, and we will be glad to offer bills to 
take up those issues when they apply.
    Today, we are talking about labor. We need to ensure that 
Native Americans are protected from NLRB interference. And with 
that, Lieutenant Governor Keel, it is my understanding that 
Indian nations use the profits from the casinos to support 
tribal community and self-government. How are the profits from 
your casino used by the Chickasaw Nation?
    Mr. Keel. Thank you, sir. The revenues that are derived 
from our casinos are used to meet the shortfalls where the 
Federal Government does not provide services or enough funding 
for many of our services. These include elder care. Many of our 
senior nutrition sites are completely, totally tribally funded. 
We have youth camps, and we have scholarships, education. We 
have a number of other services that are provided for our 
veterans, and our health care, housing, emergency services, and 
other types of services that are provided to our citizens that 
are outside the purview of federal funding.
    We operate programs, for instance, for daycare for our 
employees, Head Start, and other types of assistance to our 
employees so that they can come to work and earn a living so 
that they can provide for their families.
    Mr. Allen. How do your employee wages and benefits compare 
to, say, local averages? And have the unions attempted to 
unionize the Chickasaw Nation casino?
    Mr. Keel. Our wages and benefits either meet or exceed--in 
most cases exceed--the local averages anywhere in our area. We 
do comparisons to even the metropolitan areas of Dallas-Fort 
Worth, which is usually a higher standard than where we are 
located.
    Mr. Allen. Better than Georgia. It is better than the state 
of Georgia.
    Mr. Keel. Yes. So our benefit packages are designed to at 
least meet or exceed in most cases, any of those, 
comparatively.
    Mr. Allen. Have the unions attempted to unionize your 
casino?
    Mr. Keel. At WinStar World Casino, yes, there was a 
situation where an individual disagreed with our Indian 
preference, and that led to some other issues.
    Mr. Allen. And that is why it failed, do you think?
    Mr. Keel. Yes.
    Mr. Allen. Okay. You know, I believe that some federal laws 
do apply to tribal lands. In what federal laws apply, is there 
an application explicit in the law, and how has the Supreme 
Court determined whether federal laws apply in the event of 
ambiguity? Is there any mention of Indian tribes in either the 
NLRA or its legislative history? Anyone care to take that 
question?
    Mr. Guest. No. The NLRA, in its legislative history, is 
absolutely silent with respect to Indian tribes.
    Mr. Allen. Okay.
    Mr. Guest. The Supreme Court has not yet addressed the 
issue other than through its Tuscarora ruling back in the 
1960's that established that under the Federal Power Act, which 
had a provision specific to Indian lands, Indian tribes, and 
Indian individuals. It nonetheless still went back and answered 
an argument, saying that federal laws of general application 
would apply to Indians.
    And from that decision, the lower courts have built up a 
framework that the NLRB now follows the Tuscarora-Cour d'Alene 
Framework. Not all the circuits are in agreement with that 
framework. The D.C. Circuit in San Manuel went another way. The 
6th Circuit appears to have adopted that framework.
    And other circuits, the 10th Circuit is still noncommittal 
on that question. So the courts are all over the place with 
respect to what is the test. To sort of clarify, the rule that 
was established by the U.S. Supreme Court early in its Indian 
law jurisprudence basically said that unless Congress spoke 
specifically and applied a law to an Indian tribe it would not 
apply. That is what has now been reversed. There was an 
understanding that if that law was going to impact tribal 
sovereignty, Congress had to be explicit that it intended that 
law to do just that. And Congress has.
    Mr. Allen. Thank you.
    I yield back--
    Chairman Roe. I thank the gentleman for yielding.
    Ms. Bonamici, you are recognized for five minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman. And Mr. 
Chairman, you said at the beginning of the hearing that was a 
clear issue, and with all due respect I don't see it that way. 
I don't see it clear at all.
    It is clear that we all respect tribal sovereignty. I don't 
think there is a question about that. But I submit that there 
is also no question that tribal members and non-tribal members 
who work at tribal casinos deserve the protections and rights 
that are provided by the National Labor Relations Act.
    So we have, it is my understanding right now, 566 legally 
recognized tribes. And I know Chair Butler talked about the 
employees at Foxwood and how they were able to organize because 
your tribe has a labor relations law.
    And, Mr. Guest, you mentioned in your testimony something 
about the Navaho Nation labor code, California has a tribal 
labor relations ordinance. Lieutenant Governor Keel didn't say 
whether the Chickasaw Nation has a tribal labor relations law 
that would allow workers to form a union. I do know there were 
troubles a few years ago when the employees tried to form a 
union. And to further complicate the issue, there are many 
employees who are not tribal members who work in casinos, and 
this issue tends to come up at tribal casinos.
    So, Mr. Guest, in your testimony you encourage the 
Committee to support this legislation because, you said, tribes 
should not be subject to a one-size-fits-all approach. But the 
NLRB's current test for invoking jurisdiction over tribal 
enterprises involves a case-by-case analysis that accounts for 
the different legal, political, and economic circumstances of 
each enterprise.
    And it looks like really there are differences among the 
566 tribes. And so different tribal members have different 
protections. So the legislation simply eliminates the 
jurisdiction without considering any of the tribal diversity 
you cite.
    So isn't it fair to say that it is the bill that is the 
one-size-fits-all approach, and that the current jurisdictional 
consideration would analyze whether those protections are there 
for tribal members.
    Mr. Guest. Thank you, Congresswoman. I can see how you, and 
how others, might misinterpret what my intended meaning was 
there. With respect to what it intends to address is no 
amendment to H.R. 511, which tries to impose additional 
restrictions on tribes because tribes are diverse. It wasn't 
intended to address the fact that H.R. 511, what it would do 
is, allow each individual tribe to decide for itself what its 
labor policy is going to be on the reservation, on Indian land. 
I apologize for that confusion there.
    Ms. Bonamici. And I am going to go to Mr. Navarro. Thank 
you very much for your testimony. You mentioned that one of the 
things that motivated you to be part of an organizing effort at 
your casino is because you saw your colleagues face penalties 
for raising sexual harassment grievances. So tribal employees 
are exempt from the protections of Title VII. So as a result, 
employees who are subjected to forms of employment 
discrimination at tribally-owned workplaces don't have any 
recourse.
    I read a story about a woman who worked at a swamp safari 
in Florida. And she filed a suit against her employer after he 
allegedly sexually harassed her, and the court dismissed her 
case because of sovereign immunity.
    So, Mr. Navarro, how does your membership in a union help 
you and your coworkers address things like harassment and 
employment discrimination issues? What difference does that 
make?
    Mr. Navarro. It gives us protection from everything, like 
for example from this harassment case as it happened. We had 
members from Stations Casino who represents Graton Rancheria 
Tribe. And I would like to thank them also for letting me be 
here today because they have been very supportive of our union. 
They have been absolutely wonderful.
    They let us go ahead and negotiate at the casino with them 
there.
    But this actually helps us because these women literally--I 
witnessed this--I watched the manager who was running this 
department would go up to them and tell them if you want a 
raise, let us go and have sex at my house. Or he would text 
them and tell them, hey, let us go to my house, we are going to 
have a party, the game is on, let us get in the pool 
afterwards.
    And when we took it up with our management, which is 
Stations, we were told that it was a sovereign nation and that 
they would deal with it how they would do it. And we sat back 
and watched these girls the next day get escorted out by 
security because they were fired for all the allegations they 
made.
    And it wasn't until Chairman Sarris stepped up and said 
hey, you guys need to step back, you know, and be diligent when 
you fire people. And he said you guys need to let them go ahead 
and organize their casino. It helped us because we finally had 
a voice. And those women that were fired, I felt like there was 
some kind of repercussion because we were given the choice to 
stand and have voice.
    Unfortunately, they are no longer there. A couple months 
after Chairman Sarris came in the supervisor was removed from 
Stations Casino and moved to another casino in Minnesota.
    Ms. Bonamici. Thank you very much for being here, and your 
testimony. And my time has expired.
    I yield back, thank you.
    Chairman Roe. I thank the gentlelady for yielding.
    Mr. Pocan?
    Mr. Pocan. Yes, thank you, Mr. Chairman. I just have five 
letters I would like to ask unanimous consent to have entered 
into the record.
    [The information follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
     Chairman Roe. Without objection, so ordered.
    Mr. Grothman, you are recognized for five minutes.
    Mr. Grothman. Okay, couple questions. First question, just 
in general, we have covered this before. I think the 
appropriate parallel is not any other business, but local units 
of government. Because if I had to say, you know, traditionally 
I think we pass laws around here. We exempt state governments 
or exempt local units of government. How does it make you feel 
that compared to other locals of government you seem to be 
treated less important or less capable of self-governance?
    Mr. Butler. Congressman, we have been dealing with that for 
centuries, right? And it is unfortunate. And going back to 
Congressman Pocan's point, I mean, an excellent point about why 
aren't we addressing all these at one time. There are a lot of 
issues that, as in Indian country, we want to address at one 
time, right? And whether it is tax parity, whether it is, 
again, the bankruptcy code that I mentioned earlier, whether it 
is fair access to health care. And there are so many things 
that we would absolutely want to address at one time and would 
have liked to have addressed 150 years ago.
    But, that is just not the way the legislative process 
works. And so, clearly, we have felt like we have been dealt an 
unfair hand. And as these issues and the opportunities to 
address them come up, we want to address them.
    Mr. Grothman. Okay. Under San Manuel, the Board will not 
assert jurisdiction if the application of law would abrogate 
treaty rights. Under this standard, who determines whether the 
application of law would abrogate treaty rights? Does the board 
have any special knowledge of Indian or treaty law? And what 
level of deference should the courts give this determination by 
the board?
    Mr. Guest. Well, Mr. Grothman, the NLRB itself admits, in 
the Chickasaw decision, that it has no expertise in this area. 
The 6th Circuit, in its decision in the Little River Band case, 
says NLRB you have no expertise in this area so no Chevron 
deference for you.
    I mean, there is no question by the NLRB or anyone else 
that they have no expertise in Indian affairs, and yet they are 
calling upon themselves to interpret treaties, to determine 
what interferes with affairs on the reservation with the tribe 
that they simply have no expertise in whatsoever.
    Mr. Grothman. Thanks. Did the NLRB engage with the public 
prior to deciding this? Did they request briefs, for example?
    Mr. Guest. Yes. They followed their administrative process 
through the proceedings, yes, sir.
    Mr. Grothman. Okay.
    I will yield the rest of my time.
    Chairman Roe. I thank the gentleman for yielding.
    Mr. Rokita, you are recognized for five minutes.
    Mr. Rokita. I thank the Chairman, not only for the time as 
I am not a member of the Subcommittee, but for your leadership 
in bringing this bill forward; it says you can tell it is 
greatly appreciated. I also thank Chairman Kline for his 
leadership in getting this bill to the stage it is in today. I 
thank all the witnesses for your testimony. I think it has been 
very enlightening and very helpful to many of us who are 
honestly trying to learn more about this situation and get to 
an equitable and proper resolution.
    I am a little concerned, if not dismayed, about some of my 
colleagues who want to get themselves wrapped around the axle 
about why the NLRB and not OSHA and not some of these other 
things. And I would simply like to remind them of the title of 
today's hearing: legislative hearing on H.R. 511, Tribal Labor 
Sovereignty Act of 2015.
    Now, this bill is certainly not my idea. I am carrying, and 
I love the idea. It has been around for quite a while now. But 
it focuses on the NLRB. Who knows? Maybe tomorrow, Lieutenant 
Governor, I will file a bill on OSHA for something else.
    Mr. Keel. Could be.
    Mr. Rokita. But I want to have Mr. Guest reiterate what I 
believe to be two points here about the differences. First of 
all, this is a bill about parity. If the tribal communities 
have a government, why shouldn't it be treated just like the 
other governments in these United States, whether it be 
federal, state, or local level?
    And the second issue has to do with this third party you 
talk about, because I think that is also very important. OSHA 
doesn't invite third parties into a situation and take away the 
rights of an otherwise sovereign nation. The NLRB does, and, in 
fact, is trying to do that. Mr. Guest, can you reiterate for 
the record these two points, just so we are crystal clear: 
parity and third parties.
    Mr. Guest. Yes, thank you, Mr. Rokita. And I think that it 
clearly demonstrates in terms of IGRA itself, the Indian Gaming 
Regulatory Act, where Congress spoke. And Congress spoke about 
tribal gaming as a governmental activity that Congress itself 
says that gaming revenues are to be used for these limited 
purposes, particularly for supporting tribal programs and 
services, and not for anything else.
    When we were at the 6th Circuit in the Little River Band 
case, one of the judges said, well, aren't those Indian casinos 
just like every other casino? Don't those Indians just stick 
that money in their pocket? I mean, this is the challenge we 
have in the courts today with respect to a lack of real clarity 
on why it is that these are tribal governmental employees 
working at a casino.
    And so when we come in and we say you need to treat them 
the same, you need to treat tribes the same as all other 
governments, as the state and local governments, as the Federal 
Government. It is difficult for others to see it because they 
say, well, that is just like any other commercial enterprise, 
isn't it? It is not. It is a governmental enterprise that 
generates revenues because tribes don't have solid tax bases 
the way state and local governments may. And so there is no 
other source for revenues and why the concern with the NLRA 
applying on the reservation and allowing strikes to occur, 
which can cripple tribal government. That is where the 
concern--
    Mr. Rokita. And, in fact, not in parity with other 
governments.
    Mr. Guest. Right.
    Mr. Rokita. Correct.
    Mr. Guest. Exactly.
    Mr. Rokita. Thank you, Mr. Guest. Now, I also was concerned 
about some of the questions being asked--and I think it was 
driven by some of Mr. Navarro's testimony--regarding crimes or 
other occurrences on reservations. And I want to give Chairman 
Butler and Lieutenant Governor Keel a chance to clear these 
things up. So I am going to ask questions, I want both of you 
to answer, okay?
    Do you have, as government leaders, an interest in keeping 
your government workers safe?
    Mr. Butler. Absolutely.
    Mr. Keel. Absolutely.
    Mr. Rokita. All right. Do you, in fact, have laws regarding 
this?
    Mr. Butler. Absolutely.
    Mr. Keel. Yes.
    Mr. Rokita. Yes, you both answered yes. Do you know of any 
tribal community that doesn't address this issue?
    Mr. Butler. No.
    Mr. Rokita. Okay, second question. Do you tolerate sexual 
assault or any other kind of misconduct in any of your 
enterprises?
    Mr. Keel. Not at all.
    Mr. Butler. No.
    Mr. Rokita. You have, both have answered no to that 
question. Do you have laws regarding this kind of conduct, 
criminal or otherwise?
    Mr. Butler. Yes.
    Mr. Rokita. Regarding sexual assault or any other--
    Mr. Butler. Yes.
    Mr. Keel. We have special--
    Mr. Rokita. On a worker, right. Do you know of any tribal 
community that doesn't?
    Mr. Keel. No.
    Mr. Rokita. Right. Final question. Do you mistreat enrolled 
members who happen to have disabilities?
    Mr. Butler. Not at all. We actually have special programs 
for them.
    Mr. Rokita. Mr. Butler says no and has special programs for 
them. Lieutenant Governor?
    Mr. Keel. We have special programs for all of our people.
    Mr. Rokita. Right. I think Mr. Butler answered that. And 
one final question. Do you know of any tribe that mistreats 
their members who have disabilities?
    Mr. Butler. No.
    Mr. Keel. No.
    Mr. Rokita. You take care of your own.
    Mr. Keel. Absolutely.
    Mr. Rokita. Mr. Chairman, I yield back.
    Chairman Roe. The gentleman's time has expired. I would 
like to take this time again to thank each and every one of you 
for taking your time in preparation and in testifying before 
the Subcommittee today. I think all of you made excellent 
witnesses, and I appreciate you being here. I know you spent a 
lot of time and effort to get here, so thank you for doing 
that.
    I will now recognize my colleague, Mr. Polis, for his 
closing remarks.
    Mr. Polis. Well, I want to thank everyone for your 
impassioned and honest testimony and answers. I truly hope that 
everyone on our committee will analyze this issue objectively 
and try to take the effort to understand what has been said 
here. And as we consider this issue, it is very important to 
keep in mind the nexus between balancing our domestic sovereign 
nations' rights with the protections that are due to all 
American workers regardless of whether they are white, black, 
Hispanic, or Native American. Without the right to self-
governance, including additional rights that have often been 
afforded through treaty, we wouldn't have the strong Native 
American communities and nations that are present across our 
country today.
    But so, too, without the right to collectively bargain we 
would not have the strong and growing economy that offers a 
pathway to the middle class for so many American families. I 
look forward to continuing this discussion with individuals and 
experts on both sides of the issue, as we seek to reconcile 
these two principles that many of us on this committee hold 
dear.
    And I yield back the balance of my time.
    Chairman Roe. I thank the gentleman for yielding. And I, 
again, thank the excellent committee we have had here and the 
witnesses we have had. And I am going to just finish by saying 
this: to me, is fairly clear and fairly simple. You either are 
a sovereign nation or you are not. That is pretty simple. And I 
don't know whether we can go to the British embassy, which is 
sovereign property here, and require them to do these things. I 
don't think you can.
    So the National Labor Relations Act very specifically says 
the NLRA does not cover all employees and employers in the 
United States. For example, public sector employees--state, 
local, and federal -- and employees covered by the Railway 
Labor Act, airlines and railroads, agricultural laborers, and 
supervisors are not covered by the Act.
    Basically, what you are doing is to clarify this. That a 
sovereign Native American nation also is not covered by this 
Act. And we are not talking about the other things that were 
brought up, all very valid things. But, you should be able to 
make your own decisions on your own land.
    We have a 10th Amendment in the United States Constitution, 
which we have been fighting about who has the power in this 
government. Whether the state does--and I am a former mayor--I 
am always going to lean on the best government you have is 
local government. The further it gets from you, the worse, the 
least responsive, it is for you.
    So, I think this is very simple, and I would urge support; 
and full disclosure, I am a co-sponsor of this bill. And, once 
again, I appreciate each one of you coming. And with no further 
business, the Subcommittee stands adjourned.
    [Additional submissions by Mr. Guest follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
      
    [Whereupon, at 3:36 p.m., the Subcommittee was adjourned.]

                                 [all]
</pre></body></html>
